No. 19-1147
IN THE

Supreme Court of the United States
WILLOWOOD, LLC, WILLOWOOD USA, LLC,
WILLOWOOD AZOXYSTROBIN, LLC,
WILLOWOOD LIMITED,
Petitioners,

v.

SYNGENTA CROP PROTECTION, LLC,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
CERTIFICATE OF COMPLIANCE WITH WORD COUNT
I hereby certify, pursuant to Supreme Court Rule 33.1(h), that the BRIEF IN
OPPOSITION in the above-captioned case contains 8,842 words, excluding the parts
exempted by the Supreme Court Rule 33.1(d).
Dated: June 25, 2020

Respectfully submitted,
/s/ Russell E. Levine, P.C.
RUSSELL E. LEVINE, P.C.
Counsel of Record
HARI SANTHANAM
KIRKLAND & ELLIS LLP
300 North LaSalle Street
Chicago, Illinois 60654
(312) 862-2000
rlevine@kirkland.com
Counsel for Respondent

